  Office of Inspector General
  Report of Audit




      SUPERFUND


State Deferrals: Some Progress,

But Concerns For Long-Term

    Protectiveness Remain

       E1SFF8-11-0020-8100234
         September 10, 1998
Inspector General Division(s)   Headquarters Audit Division
 Conducting the Audit           Washington, DC
Region(s) covered               Regions 3, 4, 5, 6, 7, 8, and 10
Program Office(s) Involved      Office of Solid Waste and Emergency Response
MEMORANDUM

SUBJECT:       EPA’s Management of the State Deferral Program
               Audit Report Number E1SFF8-11-0020-8100234

FROM:          Michael Simmons
               Deputy Assistant Inspector General for Internal Audits

TO:            Timothy Fields, Jr.
               Acting Assistant Administrator for Solid Waste
                 and Emergency Response

        Attached is our final report entitled “State Deferrals: Some Progress, But Concerns For
Long-Term Protectiveness Remain.” The report addresses issues regarding EPA’s management
of the State Deferral program, and includes recommendations to address these issues.

        In accordance with EPA Order 2750, please provide this office a written response to the
report within 90 days of the report date. For corrective actions planned but not yet completed by
your response date, reference to specific milestone dates will assist us in deciding whether to close
this report.

        This report describes findings and corrective actions the Office of Inspector General
recommends to help improve and strengthen the State Deferral program. As such, it represents
the opinion of the OIG. Final determinations on matters in the report will be made by EPA
managers in accordance with established EPA audit resolution procedures. Accordingly, the
findings described in this report do not necessarily represent the final EPA position and are not
binding upon EPA in any enforcement proceedings brought by EPA or the Department of Justice.

       Again, we would like to thank your staff for their cooperation. Should your staff have any
questions about this report, please have them contact Norman E. Roth, Divisional Inspector
General for Audit, Headquarters Audit Division, on 202-260-5113 or Bill Samuel, Audit Liaison,
on 202-260-3189.

Attachment
cc:   Dave Evans, Director, State, Tribal and Site Identification Center (5204G)
      Steve Caldwell, Associate Director, State, Tribal and Site Identification Center
      (5204G)
      Randy Hippen, State, Tribal and Site Identification Center (5204G)
      Bob Myers, State, Tribal and Site Identification Center (5204G)
      Marty Otto, State, Tribal and Site Identification Center (5204G)
      Felicia Wright, State, Tribal and Site Identification Center (5204G)
      Alan Youkeles, Region 1/9 Center (5204G)
      Linda Garczynski, Director, Outreach and Special Projects Staff (5101)
      Bill Ross, Superfund Reforms Advocate, ( 5204G)
      Elizabeth Harris, OSWER Audit Liaison, (5103)
      Audit Coordinators, Regions 3, 4, 5, 6, 7, 8, and 10




                                               2
E1SFF8-11-0020-8100234                        State Deferrals: Some Progress, But Concerns For
                                                     Long-Term Protectiveness Remain

PURPOSE, SCOPE, AND METHODOLOGY

        The purpose of this audit was to determine whether sites which once warranted
Comprehensive Environmental Response Compensation Liability Act (CERCLA) response were
being addressed. Our overall objective was to determine how the Agency’s implementation of its
1995 Deferral policy affected the number of hazardous waste sites awaiting listing to the National
Priorities List (NPL.) The specific objectives were to determine:

 N     how the Agency staff could better implement the Deferral program, and

 N     whether deferred sites have been cleaned up.

       We performed our audit in accordance with the U.S. General Accounting Office’s
Government Auditing Standards, issued by the Comptroller General of the United States (1994
Revision.) We also reviewed Federal Managers’ Financial Integrity Act reports that the Office of
Solid Waste and Emergency Response (OSWER) prepared. The reports did not identify any
material weaknesses or vulnerabilities related to state deferrals. We did not detect any control
weaknesses except for those discussed in this report. Attachment 1 presents additional
information on the scope, methodology and prior audit coverage.


Background

        Currently, the Comprehensive Environmental Response Compensation Liability Act
Information System (CERCLIS) contains about 2,800 sites awaiting an NPL decision. Many of
these sites could be proposed to the NPL, but for a variety of reasons, they have not.

        During the first round of Superfund reforms in June 1993, EPA initiated the State Deferral
program. One of its goals was to reduce the number of sites awaiting listing to the NPL. The
program allows states and potentially responsible parties (PRP) to clean up deferred sites under
state programs with minimal oversight from EPA. Upon completion of the cleanup and
certification from the states, EPA can remove the deferred sites from CERCLIS. The removed
sites will be transferred to an archive database which the Agency uses to document sites that
require no further Federal action.

         Although the guidance allows for the deferral of NPL caliber sites, it does not require
strict compliance with the National Contingency Plan (NCP). Among other requirements, the
NCP states: a preference for permanent and treatment remedies over containment remedies, a
five-year review when remedies result in hazardous contaminants remaining on site, and
community involvement at certain points in the cleanup process. The deferral guidance is less
specific. It requires CERCLA-protective remedies (no preference for permanent and treatment


                                                3
E1SFF8-11-0020-8100234                        State Deferrals: Some Progress, But Concerns For
                                                     Long-Term Protectiveness Remain

remedies over containment remedies) that will be reliable for the long term and community
acceptance of deferrals. Thus, the State Deferral program offers states and PRPs the opportunity
to (1) clean up CERCLA sites without full compliance with the NCP, (2) avoid listing sites on the
NPL, and, (3) reduce EPA’s oversight of the cleanups.

         Despite these advantages, participation has been limited. As of the completion of our
fieldwork, EPA had deferred only 30 sites (see Attachment 2) to eleven states for cleanup. The
initiative started in 1993 with 22 sites in 7 states. While some state officials told us they may
request future deferrals, the State Deferral program may not grow because of the emergence of
state voluntary cleanup programs and the issuance of EPA’s policy to obtain governors’
concurrence before listing sites on the NPL.

       Voluntary Cleanup Program

        Many states have voluntary cleanup programs (VCPs) to provide more flexibility to
private parties that are willing to clean up sites without formal enforcement action. During 1995-
1997, EPA worked toward developing a guidance for regions and states to use in framing
Superfund memoranda of agreement (SMOA) that would address sites included in State VCPs.
On November 14, 1996, EPA issued to the Regions a memorandum entitled “Interim Approaches
for Regional Relations with State Voluntary Cleanup Programs.” This memorandum did not
specify the types of sites (NPL caliber or not) that should be included in the SMOA; rather, the
regions and states were to negotiate the types of sites to be included in the SMOA (e.g., whether
or not to exclude NPL-caliber sites). If states’ VCPs met the criteria specified in the
memorandum, EPA would state in the SMOA that it did not anticipate taking removal or remedial
action at sites involved in the VCP unless EPA determined that there may be an imminent and
substantial endangerment to public health, welfare, or the environment.

        In contrast with the State Deferral guidance, which many states considered very
prescriptive, the November, 1996 State VCP memorandum anticipated little, if any, oversight by
EPA. Draft guidance under discussion at the time stated that EPA would expect the state agency
to report the number of sites in the program, the sites added the previous year, and the sites
receiving certificates of completion in the previous year. The Association of State and Territorial
Solid Waste Management Officials (ASTSWMO) officials indicated that the State/EPA SMOA
approach became the alternative preferred by many states. However, ASTSWMO officials
believe the State Deferral program should continue as an alternative method for site cleanup.

       Governors’ Concurrence To List Sites On The NPL

        One of the prime incentives for participation in the State Deferral program is that states
can effectively block NPL listing. The Deferral program also gives states leverage to compel PRP
cleanups under state enforcement and voluntary cleanup programs at the states’ and PRPs’ own


                                                 4
E1SFF8-11-0020-8100234                        State Deferrals: Some Progress, But Concerns For
                                                     Long-Term Protectiveness Remain

pace. The fiscal 1995 and 1996 Appropriations Acts required the Agency to obtain governors’
concurrence before listing a site on the NPL. In November 1996, EPA established a policy to
request governors’ concurrence before listing any site. This policy effectively reduced one of the
prime incentives for states to participate in the Deferral program. In response the draft report,
Agency management commented that as of June 1998, no sites have been added to the NPL with
governor non-concurrence, and that on July 28, 1998, the Fox River site in Wisconsin became the
first site proposed to the NPL over a state’s objection.


FINDINGS AND RECOMMENDATIONS

        Primarily as a result of the limited participation, the State Deferral program has not
achieved its primary goal of reducing the number of sites in CERCLIS awaiting listing to the
NPL. The growth of state voluntary cleanup programs has apparently resulted in the State
Deferral program becoming a lower priority. If EPA continues to use this program, we believe
agency officials should consider adding some requirements to preserve the long-term
protectiveness of remedies, establishing a method to ensure community acceptance of the remedy,
and establishing internal controls to monitor and record program results.


Long-term Protectiveness Concerns Must Be Considered

        While the State Deferral program is a low priority, OSWER officials should be aware of
the significant concessions that were being made. The Agency designed the State Deferral
program so that states did not have to follow the NCP for deferred sites even though these sites
were expected to be NPL caliber sites. Some of the key portions of the NCP establish the
preference for permanent remedies and require treatment remedies in some instances, and five-
year reviews when remedies result in hazardous contaminants remaining on site. Most of the
remedies selected to date have not been permanent or treatment remedies and in a majority of
these cases, five-year reviews, or periodic checks on the protectiveness of the remedies, were not
required. Thus, remedies may not remain protective over the long term.


         Eighteen remedies have been selected at 16 of the 30 deferred sites. Of the 18 remedies
selected, 11 containment-type remedies were selected, five treatment remedies were selected (two
sites had a containment and a treatment remedy), and 2 “other” remedies (no action and natural
attenuation) were selected. For the 11 sites where containment-type remedies were selected, only
three sites (Harvey & Harvey Landfill, National Zinc, and Blackwell Zinc) had a requirement for
or similar to the five-year review. One of the three sites was in a state where the regulations
required five-year reviews. However, the regulations were unclear about how long the five-year
reviews would continue to be performed. A second site required one five-year review. The


                                                5
E1SFF8-11-0020-8100234                          State Deferrals: Some Progress, But Concerns For
                                                       Long-Term Protectiveness Remain

remedy for the third site was almost identical to CERCLA and required that a five-year review be
performed every five years to ensure that the remedy continues to protect human health and the
environment. Five-year reviews were not required for the remaining eight sites. One of the eight
sites (Bata Shoe) was an NPL caliber site and was an industrial landfill where a residential
development was planned on adjacent property. A fence was to be built, other deed restrictions
were to be implemented to limit public access to the site, and a risk assessment was to be
performed to determine whether the landfill will need to be capped. In this case, neither state
regulations nor the consent order require a five-year review to determine whether the remedy will
be protective for the long term. Thus, this community and others may not be assured that
remedies remain protective of human health and the environment for the long term.

        Attachment 3 details the 30 deferrals, the type of remedies selected for all the sites, the
status of whether five year reviews have been completed, and the sites’ status.


Required Community Acceptance of Deferrals Not Always Achieved

        State Deferral guidance provides for community support of deferrals and the termination
of deferrals based on valid community objections. We found that the Agency has no mechanism
to monitor or evaluate community support, or the lack of it. In addition, the state officials may
or may not inform EPA when communities raise significant concerns about the deferrals. The
Deferral guidance states that EPA could terminate a deferral if the community’s objections are not
addressed by the state. However, EPA may not be aware of a community’s concern because it
does not closely monitor the activities at the site or the community’s concern or objections to a
deferral. While the guidance does not suggest them as contacts, EPA has an ombudsman in each
region and at Headquarters who could be an appropriate contact for community members to raise
their concerns about the deferrals.

         Affected communities raised significant concerns at two deferred sites (National Zinc and
Healthway) that we visited. The community’s concerns at the first site were heard by with an
EPA representative when he attended a community meeting with us. However, at the second site,
while community members are involved in the remedy selection process, they had serious
concerns about the progress of cleanup and they did not know how or who to contact at EPA.
We provided the community members with a regional contact to whom they could register their
concerns. They formally asked regional officials to reconsider the deferral of the site to the State.
In this case, EPA officials decided to more closely monitor the activity at the site.




                                                  6
E1SFF8-11-0020-8100234                         State Deferrals: Some Progress, But Concerns For
                                                      Long-Term Protectiveness Remain

Monitoring and Evaluation of Program Needed To Ensure Goals Are Achieved

        At the beginning of our review, OSWER officials did not know the population of deferral
agreements that had been signed, how many sites had been deferred, or how the cleanup of sites
was (or was not) progressing. We attributed this, in part to the low priority of the program and
the lack of an effective monitoring system and evaluation program.

        Monitoring System

        Two problems in the management control system also contributed to the lack of knowledge
regarding the status of deferrals. The first involved the coding of state deferrals in CERCLIS.
The May 1995 Deferral guidance specified that certain codes be entered into CERCLIS to mark
the start and completion of the deferrals. While the fiscal 1996, 1997, and 1998 Superfund
Program Implementation Manuals (SPIM), the day-to-day guidance used by regional officials to
track site progress, indicated that a code should be entered for deferrals, it did not specify a code
for state deferrals. Thus, CERCLIS did not include data needed to monitor and manage the
program. In response to our finding, OSWER addressed this problem by adding language in the
SPIM it issued for fiscal 1999-2000. OSWER also has a code pending to indicate sites are state
deferred.

        The second problem involved the inconsistent tracking of the status of deferrals in
CERCLIS. We found that some regional officials tracked cleanup progress in CERCLIS and
others did not. Some regional officials wanted to keep close track of the deferrals while others
appeared to take a more “hands-off” approach to the deferrals. Also, one regional official
indicated that a difficulty with tracking sites in CERCLIS was that the states do not always follow
the Superfund cleanup process and so the accomplishments that the states report would not always
be the same as those included in CERCLIS. While this may be true, tracking elements should be
sufficient to keep track of the cleanup progress.

         According to state certification letters in the state files, cleanup actions have been
completed at three sites. Two of the sites were in Region 3 and one in Region 7. However, none
of the three sites has been archived from CERCLIS as required by the guidance. The Region 3
official responsible for overseeing deferrals told us that he was unaware that cleanup at the two
sites had been completed. No certification had been received from the state. The state official
responsible for the deferrals said that he would provide some kind of proof of the cleanup
completion if EPA would reimburse the state for the certifications. Otherwise, he indicated that he
has little motivation to make sure the site is removed from CERCLIS.




                                                 7
E1SFF8-11-0020-8100234                         State Deferrals: Some Progress, But Concerns For
                                                      Long-Term Protectiveness Remain

         The Region 7 official responsible for tracking deferrals told us that he was aware of the
completion and had requested the site be archived from CERCLIS. Region 7 was then in the
process of upgrading CERCLIS from version 2 to version 3, and the archival of the site would not
occur until the upgrade was completed. While the CERCLIS 3 upgrade was completed by
September 1997, another Region 7 official told us that she was currently evaluating the archival of
the site based on information we provided and her review of regional documentation. By more
closely tracking the status of cleanup at deferred sites, OSWER management will be able to ensure
that completed sites will be removed from CERCLIS and that the pool of sites awaiting listing to
the NPL will be reduced.

       Evaluation of Program

         In 1993, a workgroup was established to draft Deferral guidance, performance measures,
and evaluate deferrals used to pilot the program. While the workgroup drafted performance
measures, they have never been finalized. The workgroup also drafted an evaluation strategy and
an evaluation questionnaire, but no action was taken. OSWER officials told us that growth in state
voluntary cleanup programs led them to make the State Deferral program a lower priority. Since
then, they have made changes to the Superfund Comprehensive Accomplishments Plan (SCAP) 13
report to track deferral starts and completions. They have also added deferrals to a draft
Government Performance and Results Act sub-objective so that they can track the percentage of
sites that have final assessment decisions. However, neither of these efforts reflects the Deferral
program’s desired outcome which is the reduction of the sites awaiting listing population.

        Because of the low priority, OSWER officials told us that they did not have the resources
to gather the data necessary to manage and evaluate the Deferral program. At the end of our
review, we provided our data including EPA and state contacts, deferral status and other
information that would help in monitoring the program.


Cleanup at Deferred Sites - Slow but Progressing

       While 14 cleanups were behind the schedules agreed to in consent decrees or other
enforceable documents, generally they were progressing. Of the 30 deferrals,15 were in the
Remedial Investigation/Feasibility Study (RI/FS) stage, 12 were in Remedial Design/Remedial
Action (RD/RA), and 3 had reached the Completion stage. The chart below shows the cleanup
phase for the deferred sites. (Note that states did not always use the same cleanup process EPA
uses. We categorized the state deferrals’ progress according to the most similar stage EPA uses.)



                                      Stages of Progression


                                                 8
E1SFF8-11-0020-8100234                                 State Deferrals: Some Progress, But Concerns For
                                                              Long-Term Protectiveness Remain


                 Stage of Progress                                 Number of Sites

                 Remedial Investigation/ Feasibility                     15
                 Study

                 Remedial Design/
                 Remedial Action                                         12

                 Completion                                              3


       For the three completed sites, relatively simple remedies were performed, including soil
disposal and the implementation of institutional controls (groundwater and deed restrictions.)

         Based on site visits, and reviews of files and other available documents for 21 sites, we
determined that RI/FS activities, including consent orders, proposed plans, and Records of
Decision (ROD) had been completed at 13 sites. Some RD/RA activities had been completed at 5
sites, and 3 sites had been completed since the sites were deferred to the states. Attachment 4
charts, by deferral date, the last completed activity (progression) made since the deferral date for
the 21 sites.



Recommendations

      We recommend that the Acting Assistant Administrator for Solid Waste and Emergency
Response implement the following actions:

       (1)     Because a majority of the remedies that were selected by states were containment
               remedies and did not offer assurances of long term protectiveness, establish a
               mechanism to ensure that five-year reviews or an equivalent process will be
               performed where hazardous contaminants will remain on sites.

       (2)     In order to make sure that communities can raise their concerns to EPA about the
               deferrals, establish a mechanism to ensure that community concerns relative to
               deferrals are brought to EPA’s attention.

       (3)     In order to assist in tracking performance measures for achieving Government
               Performance and Results Act (GPRA) goals, improve the management of the State
               Deferral program by:




                                                         9
E1SFF8-11-0020-8100234                          State Deferrals: Some Progress, But Concerns For
                                                       Long-Term Protectiveness Remain

                a)     Reviewing the SPIM to ensure that tracking elements are sufficient to cover
                       differences in state program terminology.

                b)     Establishing a mechanism to require regional officials responsible for
                       tracking the deferrals to more closely track the deferrals so that sites can be
                       archived from CERCLIS upon completion of the deferral.

                c)     Implementing performance measures that will reflect the desired outcomes
                       of the Deferral program.


Agency Comments and OIG Evaluation

        In response to the draft report, the Acting Assistant Administrator for Solid Waste and
Emergency Response suggested various editorial changes and modification of the
recommendations to make them less specific. We made changes to this report to address the
editorial changes for the most part, and we modified the recommendations as discussed with
Agency officials during our exit conference. Management’s response to the draft report is included
in Attachment 5. Additional management comments were documented on a copy of the draft
report. These comments are not reflected in the response in Attachment 5.

        In their response to our draft report, Agency management also asked for us to report
certain data that we collected during our audit that was not a report finding, but was data
important to the Agency. Specifically, the Agency requested that we include, where we had data
available: (1) expanded discussion of the remedies implemented by states at deferred sites, when
compared to remedies at NPL sites for similar periods, (2) characterization of the cleanup
standards used by states when compared with Federal standards (i.e., more information on the
statements ... that "[M]ost remedies . . . have not been permanent or treatment remedies" and yet
"five-year reviews . . . were not required.") and (3) discussion of the average duration of phases for
which survey data are available (compared to durations for NPL sites).

Our response to these requests is as follows, respectively:

!      We did not obtain the date for every ROD or ROD equivalent during our review because
       we did not review every site file or visit every state deferral. However, assuming that no
       remedies were selected before the sites were deferred, during the period fiscal years 1993
       to 1997, states selected 11 (61%) containment remedies for the 18 total remedies selected.
       For the same period, according to data that we did not audit and that the Agency provided
       for the expressed purpose of making this comparison, EPA selected 207 (38%)
       containment remedies for the 544 total remedies selected.



                                                 10
E1SFF8-11-0020-8100234                       State Deferrals: Some Progress, But Concerns For
                                                    Long-Term Protectiveness Remain

!    We gathered limited data regarding the cleanup standards that were to be used by the
     states. According to the Deferral guidance, the quality of a response action should be
     CERCLA protective. CERCLA protective is defined as “protective of human health and
     the environment as defined generally by a 10-4 to 10-6 risk range and a hazard index of 1 or
     less. Generally, the state also should consider giving preference to solutions that will be
     reliable over the long term.”

     Six (North Carolina, Michigan, Kansas, Wyoming, Colorado, Washington) of the 14
     deferral agreements indicated that the remedies will be CERCLA protective as indicated in
     the guidance. Three (2 agreements with Oklahoma, 1 with New Mexico) of the
     agreements indicated that the remedies would be CERCLA quality. CERCLA quality
     means that the remedial actions must be protective of human health and the environment,
     utilize “permanent solutions and alternative treatment technologies to the maximum extent
     practicable,” and be “cost-effective“ and attain applicable and relevant and appropriate
     requirements. Three more (New Mexico, Iowa, Idaho) of the agreements indicated that
     the remedies would be consistent with CERCLA and the NCP. A cleanup consistent with
     CERCLA and the NCP is one where a private party cleaning up the site has substantially
     complied with potentially applicable requirements and the cleanup resulted in a CERCLA
     quality cleanup. The final two (Maryland, Delaware) agreements indicated that the
     remedies would be protective of human health and the environment and comply with all
     applicable laws and regulations.

     We gathered no other information regarding the cleanup standards during the audit.

!    During the audit, we gathered information regarding the status of 21 of the 30 deferrals. In
     Attachment 6, we have detailed the sites’ status and the earliest dates we were able to
     document where EPA or the states became aware of the sites.

     We observe that for 9 of the 21 sites, it appears that states became aware of the sites before
     EPA did. While we made this observation, we offer no conclusions about the durations of
     specific phases or overall because we either did not gather the data because it was outside
     of the scope of this audit, or because we believe there are too many factors that can affect
     the data, such as changes in policy and potentially responsible party willingness to clean
     sites up.




                                              11
E1SFF8-11-0020-8100234                          State Deferrals: Some Progress, But Concerns For
                                                       Long-Term Protectiveness Remain

                                                                                        Attachment 1
                                                                                          Page 1 of 2

               SCOPE, METHODOLOGY, AND PRIOR AUDIT COVERAGE


Scope

This report summarizes the management and results of all of the sites deferred to states as pilots or
formal state deferrals as of the end of our fieldwork. The audit work was performed at the
Headquarters Office of Solid Waste and Emergency Response (OSWER) and at regional and state
offices. We conducted our survey and audit fieldwork from July 31, 1997 to January 16, 1998.


Methodology

        Our overall objective, as discussed with Agency management during our survey, was to
determine how the implementation of the 1995 Deferral policy affected the number of sites
awaiting listing. To accomplish this objective, we obtained data from the agency regarding the
number of sites awaiting listing. We also evaluated the Deferral policy to assess its potential effect
on the number of sites awaiting listing. We considered other factors that may have affected the
participation in the Deferral program and thus, the impact on the number of sites awaiting listing.
We also considered the data collected during the achievement of the second specific objective as
discussed below.

        Our first specific objective was to determine how Agency staff could better implement the
Deferral program. We reviewed background material, including a prior audit report and
OSWER’s Superfund Administrative Reforms Manual. We interviewed Headquarters, regional
and state officials to obtain the lessons learned in handling the responses at the deferred sites, the
factors of success for the deferrals, improvements to the deferral program, and EPA value added at
deferred sites. We examined several management controls including whether performance
measures were established and how the deferral data is obtained and monitored. We also identified
factors affecting the participation in the Deferral program.

        Our second specific objective was to determine whether deferred sites have been cleaned
up. To accomplish this objective, we interviewed EPA regional and state officials responsible for
overseeing the deferrals. We also performed file reviews and/or conducted site visits to observe
site conditions for deferrals in Delaware, Idaho, Kansas,




                                                 12
E1SFF8-11-0020-8100234                        State Deferrals: Some Progress, But Concerns For
                                                     Long-Term Protectiveness Remain

                                                                                     Attachment 1
                                                                                       Page 2 of 2


Maryland, New Mexico, and Oklahoma. We received assistance from the OIG’s Engineering and
Science Staff to assist us during some of the site visits and to review selected documentation.

        We also met with the Association of State and Territorial Solid Waste Management
Officials to discuss how the Deferral program could be improved and what the factors of success
for the deferrals were.


Prior Audit Coverage

        The Office of Inspector General issued an audit report in January 1994, entitled, ”Program
Enhancements Would Accelerate Superfund Site Assessments and Cleanup” (E1SFF3-08-0021-
4100180). This report evaluated many of the sites then awaiting listing to the National Priorities
List and potential actions for addressing the backlog. One of the recommendations was that the
Agency implement a well defined deferral policy to significantly reduce the backlog of sites
awaiting listing. The Agency agreed with the recommendation and had already begun to draft
guidance by the time the audit report was issued.

        We also performed an audit of five-year reviews entitled, “Backlog Warrants Higher
Priority For Five-Year Reviews,” (E1SFF4-11-0029-5100229.) CERCLA 121(c) required that the
Agency review any site where pollutants remain after remedial action no less often than every 5
years. We found that, while there was a backlog of five-year reviews to be performed, the reviews
performed to date were valuable tools to identify successful remedies or those remedies that have
developed problems or have failed.

         Some of the five-year review reports indicated that corrective action was necessary. Five
year reviews were also useful as a check of operations and maintenance. For example during one
of the five-year reviews, the Remedial Project Manager discovered the remains of a dead animal
inside a monitoring well. The remains made the well no longer viable. An effective operation and
maintenance activity may have prevented this condition. However, in this case, the five-year
review detected this condition.




                                                13
E1SFF8-11-0020-8100234                    State Deferrals: Some Progress, But Concerns For
                                                 Long-Term Protectiveness Remain

                                                                                   Attachment 2
                                                                                    Page 1 of 1
                            LIST OF 30 DEFERRED SITES
                 State                    Site Name
               Maryland               Anne Arundel County Landfill
               Maryland                         Bata Shoe
               Maryland                      Bausch & Lomb
               Maryland                      Black & Decker
               Maryland               North Carroll Shopping Plaza
               Maryland                     Scarboro Landfill
               Delaware                 Harvey & Harvey Landfill
               Delaware                        Healthways
               Delaware                 Chicago Bridge and Iron
               Michigan                        Willow Run
               Oklahoma                       National Zinc
               Oklahoma                      Blackwell Zinc
              New Mexico                      Terrero Mine
              New Mexico                       Chino Mine
                 Iowa                      GM (AC Rochester)
                Kansas                      Gilbert & Mosley
                Kansas                        4th and Carey
                Kansas                        Lakeside Hills
                Kansas                      Deluxe Specialties
                Kansas                        Scoular Grain
                Kansas              Mid-Kansas C. (Moundridge PWS)
                Kansas                  Hallmark-Select Products
                Kansas       13th and Washington (part of the North Industrial
                                              Corridor Site)
                Kansas      29th and Mead (part of the North Industrial Corridor
                                                   Site)
                 Kansas                Farmland-South Hutchinson
                 Kansas                         Neosho #2
               Wyoming                       Ferris Haggerty
                Colorado                Larimer County Landfill
               Washington               Washington Natural Gas
                 Idaho                        Triumph Mine




                                            14
E1SFF8-11-0020-8100234                         State Deferrals: Some Progress, But Concerns For
                                                      Long-Term Protectiveness Remain

                                                                                        Attachment 3
                                                                                         Page 1 of 3



   LIST OF 30 DEFERRED SITES, REMEDY, FIVE YEAR REVIEW AND STATUS
Site              State         Type of Remedy           Five Year            Status per Remedial
                                Selected                 Review               Project Managers or
                                                         Completed?           File Reviews
 Anne Arundel       Maryland    Containment                                   Remedial Design
County Landfill
   Bata Shoe        Maryland    Containment                                   Remedial Design
Bausch & Lomb       Maryland    Not Yet Selected                              Remedial Investigation
Black & Decker      Maryland    Treatment, other areas                        Remedial Action
                                not yet selected
 North Carroll      Maryland    Treatment                                     Remedial Action
Shopping Plaza
   Scarboro         Maryland    Containment and                               Remedial
   Landfill                     Treatment                                     Investigation/Feasibility
                                                                              Study
  Harvey &          Delaware    Containment              Not yet required -   Completed 3/97
Harvey Landfill                                          due by 2/02
 Healthways         Delaware    Not Yet Selected                              Remedial
                                                                              Investigation/Feasibility
                                                                              Study
Chicago Bridge      Delaware    Treatment                                     Completed 1/96
  and Iron
 Willow Run        Michigan     Containment                                   Remedial Action
 National Zinc     Oklahoma     Containment and          Not yet required -   Remedial Action
                                Treatment                due by 8/00
 Blackwell Zinc    Oklahoma     Containment              Not yet required -   Negotiating Remedial
                                                         due no earlier       Action, Remedial Design
                                                         than 4/01            Complete 1
 Terrero Mine     New Mexico    Not Yet Selected                              Remedial
                                                                              Investigation/Feasibility
                                                                              Study




       1
         Not confirmed with file review or site visit. We obtained this data from EPA Remedial
Project Managers who completed our questionnaires.

                                                   15
E1SFF8-11-0020-8100234                        State Deferrals: Some Progress, But Concerns For
                                                     Long-Term Protectiveness Remain

                                                                                   Attachment 3
                                                                                    Page 2 of 3

Site               State        Type of Remedy          Five Year        Status per Remedial
                                Selected                Review           Project Managers or
                                                        Completed?       File Reviews
  Chino Mine       New Mexico   Not Yet Selected                         Remedial Investigation
                                                                         Fieldwork 1
   GM (AC             Iowa      Not Yet Selected                         Remedial
  Rochester)                                                             Investigation/Feasibility
                                                                         Study 1
   Gilbert &         Kansas     Containment                              Remedial Design,
    Mosley                                                               Treatability Study
 4th and Carey       Kansas     Not Yet Selected                         Remedial
                                                                         Investigation/Feasibility
                                                                         Study
 Lakeside Hills      Kansas     Containment                              Remedial Design/
                                                                         Remedial Action 2
    Deluxe           Kansas     Other - No remedy                        Completed 11/96
  Specialties                   performed
 Scoular Grain       Kansas     Not Yet Selected                         Remedial
                                                                         Investigation/Feasibility
                                                                         Study
Mid-Kansas C.        Kansas     Not Yet Selected                         Remedial
 (Moundridge                                                             Investigation/Feasibility
     PWS)                                                                Study
Hallmark-Select       Kansas    Other - Natural                          Remedial Action
   Products                     Attenuation
   13th and          Kansas     Not Yet Selected                         Remedial
  Washington                                                             Investigation/Feasibility
  (part of the                                                           Study
North Industrial
 Corridor Site)




       1
          Not confirmed with file review or site visit. We obtained this data from EPA Remedial
Project Managers who completed our questionnaires.
       2
            File review only confirmed proposed plan as having been completed which would then
categorize this site as being in the Remedial Investigation/Feasibility Study Stage.

                                                   16
E1SFF8-11-0020-8100234                         State Deferrals: Some Progress, But Concerns For
                                                      Long-Term Protectiveness Remain

                                                                                    Attachment 3
                                                                                     Page 3 of 3

Site               State         Type of Remedy          Five Year        Status per Remedial
                                 Selected                Review           Project Managers or
                                                         Completed?       File Reviews
29th and Mead         Kansas     Not Yet Selected                         Remedial
  (part of the                                                            Investigation/Feasibility
North Industrial                                                          Study
 Corridor Site)
Farmland-South        Kansas     Not Yet Selected                         Remedial
  Hutchinson                                                              Investigation/Feasibility
                                                                          Study
  Neosho #2           Kansas     Containment                              Remedial Design/
                                                                          Remedial Action 1
Ferris Haggerty     Wyoming      Not Yet Selected                         Feasibility Study 1
Larimer County      Colorado     Containment                              Remedial Design/
    Landfill                                                              Remedial Action 1
 Washington         Washington   Not Yet Selected                         Remedial
 Natural Gas                                                              Investigation/Feasibility
                                                                          Study 1
 Triumph Mine         Idaho      Not Yet Selected                         Remedial
                                                                          Investigation/Feasibility
                                                                          Study




  1
       Not confirmed with file review or site visit. We obtained this data from EPA Remedial
       Project Managers who completed our questionnaires




                                                    17
E1SFF8-11-0020-8100234                               State Deferrals: Some Progress, But Concerns For
                                                            Long-Term Protectiveness Remain

                                                                                                 Attachment 4
                                                                                                  Page 1 of 2

                          PROGRESS OF 21 SITES SINCE DEFERRAL
                                                           Last    Last Activity
                                                         Completed Completion
  Site Name                       State    Deferral Date  Activity    Date
  Terrero Mine                         New Mexico             Mar-93        Proposed Plan            Dec-97
  Black & Decker                        Maryland              Feb-94            RD/RA                Apr-95
                                                                            Consent Order
  North Carroll Shopping                Maryland              Feb-94            RD/RA                Nov-94
                                                                            Consent Order
  Bata Shoe                             Maryland              Feb-94            RD/RA               May-97
                                                                            Consent Order
  Bausch & Lomb                         Maryland              Feb-94            RI/FS                Jan-97
  Anne Arundel Landfill                 Maryland              Feb-94            RD/RA                Mar-97
                                                                            Consent Order
  National Zinc                         Oklahoma              Mar-94            RD/RA                Feb-97
                                                                            Consent Order
  Farmland S. Hutchinson                 Kansas               May-94        RI/FS Consent            Apr-96
                                                                                Order
  Gilbert & Mosley                       Kansas               May-94            ROD1                Sep-94
  Fourth & Carey                         Kansas               May-94        RI/FS Consent           Apr-942
                                                                                Order
  Lakeside Hills Golf                    Kansas               May-94          Proposed               Sep-96
                                                                                 Plan3
  Scoular Grain                          Kansas               May-94        Proposed Plan            Oct-97
  Hallmark-Select Products               Kansas               May-94            ROD4                  Jul-97
  Deluxe Specialties                     Kansas               May-94         Completion              Nov-96
  Chicago Bridge & Iron                 Delaware              Jun-94         Completion              Aug-96
  Harvey & Harvey Landfill              Delaware              Jun-94         Completion              Mar-97



       1
           The site is undergoing remedial design and a treatability study is being performed.

       2
           As of the end of our fieldwork in Kansas in December 1997, the RI/FS was not yet completed.

       3
         Though we found no evidence in the files, Region 7 officials indicated that the remedy had
been selected; thus the site would be in the RD/RA phase.

       4
           The remediation (natural attenuation of the groundwater) is ongoing.

                                                        18
E1SFF8-11-0020-8100234                              State Deferrals: Some Progress, But Concerns For
                                                           Long-Term Protectiveness Remain

                                                                                           Attachment 4
                                                                                            Page 2 of 2

                                                                      Last    Last Activity
                                                                    Completed Completion
 Site Name                               State        Deferral Date  Activity    Date
 Healthways                            Delaware             Jun-94            ROD5            Mar-97
 Triumph                                Idaho               Aug-94        Proposed Plan       Nov-97
 Scarboro Landfill                     Maryland             Mar-95            RI/FS           Nov-97
 29th and Meade (part of the            Kansas                Oct-96      RI/FS Workplan       Nov-97
 North Industrial Corridor)
 13th and Washington (part of           Kansas                Oct-96      RI/FS Workplan       Nov-97
 the North Industrial Corridor)




      5
          The ROD equivalent is being reconsidered and the site is in the RI/FS stage.

                                                       19
E1SFF8-11-0020-8100234                          State Deferrals: Some Progress, But Concerns For
                                                       Long-Term Protectiveness Remain

                                                                                      Attachment 5
                                                                                       Page 1 of 3




MEMORANDUM

SUBJECT:       Draft Audit Report on EPA’s Management of the State Deferral Program
               (Audit Report No. E1SFF8-11-0020)

FROM:          Timothy Fields, Jr. 7
               Acting Assistant Administrator

TO:            Michael Simmons
               Deputy Assistant Inspector General for Internal Audits
               Office of the Inspector General


        As requested, the Office of Solid Waste and Emergency Response (OSWER) has reviewed
the draft audit report entitled EPA’s Management of the State Deferral Program, dated July 9,
1998. The stated objectives of the audit were to determine how EPA could better implement the
State Deferral program and whether deferred sites have been cleaned up.

        I offer the following comments on the draft report. In addition, I have attached a copy of
the draft report with comments noted in the margins.

C      Page 4: The “Voluntary Cleanup Program” section should be re-written as follows:

                        Many States have Voluntary Cleanup programs (VCPs) to provide more
               flexibility to private parties that are willing to clean up sites without formal
               enforcement action. During 1995-1997, EPA worked toward developing a
               guidance for Regions and States to use in framing Superfund memoranda of
               agreement (SMOAs) that would address sites included in State VCPs. On


        7
        This is an electronic file of the management response memorandum which was signed and
dated 8/20/98.

                                                 20
E1SFF8-11-0020-8100234                      State Deferrals: Some Progress, But Concerns For
                                                   Long-Term Protectiveness Remain

                                                                                   Attachment 5
                                                                                    Page 2 of 3


             November 14, 1996, EPA issued to the Regions a memorandum entitled “Interim
            Approaches for Regional Relations with State Voluntary Cleanup Programs.”
            This memorandum did not specify the types of sites (NPL caliber or not) that
            should be included in the SMOA; rather, the Regions and States were to negotiate
            the types of sites to be included in the SMOA (e.g., whether or not to exclude
            NPL-caliber sites). If states’ VCPs met the criteria specified in the memorandum,
            EPA would state in the SMOA that it did not anticipate taking removal or
            remedial action at sites involved in the VCP unless EPA determined that there
            may be an imminent and substantial endangerment to public health, welfare, or
            the environment.

                    In contrast with the State Deferral guidance, which many States considered
            very prescriptive, the November, 1996 State VCP memorandum anticipated little, if
            any, oversight by EPA. Draft guidance under discussion at the time stated that
            EPA would expect the state agency to report the number of sites in the program,
            the sites added the previous year, and the sites receiving certificates of completion
            in the previous year. The Association of State and Territorial Solid Waste
            Management Officials (ASTSWMO) officials indicated that the State/EPA SMOA
            approach became the alternative preferred by many states. However, ASTSWMO
            officials believe the State Deferral program should continue as an alternative
            method for site cleanup.

C    Page 5: As written, the Report does not address several aspects of State programs. The
     following information should be included in the report, if it is available from the OIG
     survey: (1) expanded discussion of the remedies implemented by States at deferred sites,
     when compared to remedies at NPL sites for similar periods, (2) characterization of the
     cleanup standards used by States when compared with Federal standards (i.e., more
     information on the statements contained on page 5 that "[M]ost remedies . . . have not been
     permanent or treatment remedies" and yet "five-year reviews . . . were not required.") and
     (3) discussion of the average duration of phases for which survey data are available
     (compared to durations for NPL sites).

C    Page 5: As used in the text, "trade-offs" does not convey the "significant differences"
     between the Federal cleanup program and State Deferral programs referenced elsewhere.




                                              21
E1SFF8-11-0020-8100234                        State Deferrals: Some Progress, But Concerns For
                                                     Long-Term Protectiveness Remain

                                                                                     Attachment 5
                                                                                      Page 3 of 3


C      Pages 9 and 10: The recommendations are too specific. The report should offer general
       recommendations so that OSWER and the Regions could evaluate the issues in
       consultation with the States and the OIG before deciding the specific actions necessary,
       including changes to the guidance and the process. If the OIG retains the specific
       recommendations, it should provide reasons for its recommendations (e.g., how the
       recommended increase in Federal oversight might affect the use of the State Deferral
       program by States) and the expected benefits in terms of program performance or
       efficiency.

        Thank you for the opportunity to provide comments on the Draft Audit Report. If you
have any questions, please contact Dave Evans of the State, Tribal and Site Identification Center
(STSI) at (703)603-8885, or Marti Otto of STSI at (703)603-8853, or Elizabeth Harris, OSWER
audit liaison, at (202)260-7323.




                                                22
E1SFF8-11-0020-8100234                          State Deferrals: Some Progress, But Concerns For
                                                       Long-Term Protectiveness Remain

                                                                                    Attachment 6
                                                                                     Page 1 of 2


                              TIME SPAN FOR 21 DEFERRALS
                                                                   Time Span
                                                                   at Last        Time
                                                  Last Known       Known          Span Thru
                Earliest               Latest     Completed        Completed      1/30/98
 Site           Date       Activity    Date       Activity         Activity
 National       Nov-79     EPA         Feb-97     RD/RA            17 Years       18 Years
 Zinc                      Discovery              Consent Order/    3 Months      2 Months
                                                  Agreement
                                                  (CO)

 Anne           Nov-79     EPA         Mar-97     RD/RA CO         17 Years       18 Years
 Arundel                   Discovery                               4 Months       2 Months
 LF

 CBI            Oct-80     EPA         Aug-96     Completion       15 Years
                           Discovery                               9 Months

 Bata Shoe      Oct-80     EPA         May-97     RD/RA CO         16 Years       17 Years
                           Discovery                               7 Months       3 Months

 Harvey &       May-81     EPA         Mar-97     Completion       15 Years
 Harvey LF                 Discovery                               10 Months

 13th and       Feb-91     EPA         Nov-97     RI/FS Workplan   7 Years        7 Years
 Wash’gton                 Discovery                               9 Months       11 Months
 (part of the
 North
 Industrial
 Corridor)

 29th and       Oct-81     EPA         Nov-97     RI/FS Workplan   16 Years       16 Years
 Meade                     Discovery                               1 Month        3 Months
 (part of the
 North
 Industrial
 Corridor

 Bausch &       Feb-83     EPA         Jan-97     RI               13 Years       14 Years
 Lomb                      Discovery                               11 Months      11Months

 Tererro        Dec-89     EPA         Dec-97     Proposed Plan    8 Years        8 Years
 Mine                      Discovery                                              1 Month


                                                 23
E1SFF8-11-0020-8100234                         State Deferrals: Some Progress, But Concerns For
                                                      Long-Term Protectiveness Remain

                                                                                   Attachment 6
                                                                                    Page 2 of 2

                                                                  Time Span
                                                                  at Last        Time
                                                 Last Known       Known          Span Thru
               Earliest               Latest     Completed        Completed      1/30/98
 Site          Date       Activity    Date       Activity         Activity
 Black &       Oct-89     EPA         Apr-95     RD/RA CO         5 Years        8 Years
 Decker                   Discovery                               6 Months       3 Months

 Scarboro      Jun-87     PA-Done     Nov-97     RI               10 Years       10 Years
 LF                       by State                                5 Months       8 Months

 Deluxe        Aug-88     PA-Done     Nov-96     Completion       8 Years
 Specialties              by State                                3 Months

 Hallmark-     1983       State       Jul-97     ROD equivalent   * 14 Years     * 15 Years
 Select                   Discovery

 Healthway     1984       State       Mar-97     ROD equivalent   * 13 Years     * 14 Years
                          Discovery

 Gilbert &     1986       State       Sep-94     ROD equivalent   * 8 Years      * 12 Years
 Mosley                   Discovery

 Lakeside      1991       State       Sep-96     Proposed Plan    * 5 Years      * 7 Years
 Hills Golf               Discovery

 Fourth &      Apr-85     State       Apr-94     RI/FS CO         9 Years        12 Years
 Carey                    Discovery                                              9 Months

 North         Jun-87     State       Nov-94     RD/RA CO         7 Years        10 Years
 Carroll                  Discovery                               5 Months       8 Months
 Shopping

 Triumph       Nov-87     State       Nov-97     Proposed Plan    10 Years       10 Years
 Mine                     Discovery                                              2 Months

 Scoular       Jun-88     State       Oct-97     Proposed Plan    9 Years        9 Years
 Elevator                 Discovery                               4 Months       7 Months

 Farmland     Mar-92      State       Apr-96     RI/FS CO         4 Years        5 Years
 S.                       Discovery                               1 Month        10 Months
 Hutchinso
 n
* = Approximately


                                                24
